1

No.

0

G9

O

IN THE
SUPREME COURT OF THE UNITED STATES

Rodney Andre Smith, Pro Se,
(Your Name)
■

ys

vs.
Susan Barker, et al,

■ 3 F.U'fett

— RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO

s>

FILED
JUL 08 2020

SUPREEMEFCTOlfpTL^Rc:K

the united states 10th rd remit rr-mrt r>P appall gPrrnlnradn_____

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Rodney Andre smiht Pro Se

(Your Name)
BCCF, 11560 county road FF.VR

(Address)
Las Animas , Colorado 81054
(City, State, Zip Code)
NONE

(Phone Number)

QUESTION(S) PRESENTED
Whether dismissal of informa pauperis complaint as frivolous is properly
reviewed for abuse of discretion and it wass error for court of appeals
to review dismissal of complaint de novo.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Susan Barker; Jerry Roark; Nanette Thomas; Shawn Gonzales; Dianna Milenski;
Steven Salazar; Marshall Griffith; PPMU Mr. Cook; Sandra Brown;Anthony
A.Decesaro; Respondents.

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5'. 6,7,8

CONCLUSION

9

INDEX TO APPENDICES

APPENDIX A Order and judgment of dismissal of complaint, March 16,2020
tenth circuit court of appeals No.19-1469
APPENDIX B Recommendation of united states magistrate judge civil action
19-CV-02340-LTB-GPG dated November 4, 2019.
APPENDIX C Order of the united states District court for the District of
Colorado civil action No.19-CV-02340 dated November 27,2019.
APPENDIX D Department of corrections administrative regulation 750-01
legal access citing Petrick V Maynard, 11 F.3d 991 (10th
circu1.993)
APPENDIX E

APPENDIX F

1

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Denton V. Hernandez, 504 U.S. 25,112 S.CT.1728,1734 (U.S.Cal.1992)-8
8

FDIC V.United Pac.Ins.Co; 152 F33d 1266,1272 (10th Cir.1998)---Neitzke V. Williams, 490 U.S. 319,327-328 (1989)
Petrick V. Maynard, 11 F.3d 991 (10th Cir.1993)

5
6

STATUTES AND RULES
28 U.S.C. 1915

8

42 U.S.C. 1983

3,4,5

United States Supreme court Rule 10 (a)r-and—(e)-----Rule 13.1
28 U.S.C. 1254(1)

---- 5,7
8
2

OTHER
Due process clause of the fourteenth amendment-

3,4,6

Administrative Regulation 750-01 Appendix c-

5,

m

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix —
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
P ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
March 16/2020

k ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ___ ________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
.
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involes amendment XIV to the united states constitution which
provides:
Section 1. All persons bom or naturalized in the united states, and subject
to the jurisdiction thereof, are citizens of the united states and of the
state wherein they reside.
No state shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the united states;nor shall anyystate deprive
any person of life, liberty, or property, without due process of law;nor
deny to any person within its jurisdiction to equual protection of the law.
Section 5. The congress shall have power to enforce, by appropriate
legislation, the provision of this article.
The amendment is enforced by Title 42, section 1983, united states code:
Everyi;person who, under color of ant statute,ordinace,regulation,custom,
or usage,of any state or territory or the district of Columbia, subjects,
or causes to be subjected,ant citizen of the united states or other
person within the jursidiction thereof to the deprivation of any rights,
privileges,or immunities secured by the constitution and law;* shall be
liable to the party injured in an action at law,suit in equity,or other
proper proceeding for redress, except that in any action brought against
a judicial officer for an act or emission taken in such officer's judicial
capacity, injunctive relief shall not be granted unless a declaratory decree
was violated or declaratory relief was unavailable, for the purpose of this
section,any act of congress applicable exclusively to the district of
Columbia shall be considered to be a statute of the district of Columbia.

3.

STATEMENT OF THE CASE
In October 2010 Mr.Smith was convicted of various charges in Colorado and
received an enhanced sentence based upon his prior convictions in Louisiana.
Mr.Smith alleges that after starting his sentence, he repeatedly sought legal
assistance fromm the Bent County Correctional Facility law library personnel
regarding access to legal materials to attack the louisiana convictions.
Because the BCCF's law library did not possess the requested louisiana
■materials, Mr.Smith filed grievances which were denied.
Mr.Smith filed numerous grievances against all the respondents in this
petition challenging the prison law library legal assistant's rejection of
his request for the desired legal materials for his research which at this
time Mr.Smith exhausted all his adminstrative remedies.
After failing to obtain any legal materials to attack the five (5) prior
louisiana convictions, Mr.Smith filed his 42 U.S.C. 1983 civil rights
action in the united states district court for the district of Colorado
alleging the states failure to obtain specified legal materials that he
requested violated his constitutional right to meaningful access to the
courts. The matter was reffered to the magistrate judge for recommendation.
After review the magistrate judge recommended the action be dismissed as
legally frivolous.
This matter was again before the judge who referred the case to the
magistrate judge. Upon de novo review, the district court adopted the
magistrate judge's report and recommendation and dismissed Mr.Smith's
complaint with prejudice.
Mr. Smith perfected an appeal to challenge the district court's dismissal
of his complaint as legally frivolous. Subsequnetly the united states
court of appeals for the tenth circuit upon de novo review affirmed the
district court's dismissal of the action as legally frivolous.
Mr. Smith timely filed with the clerk of this court his petition for a
writ of certiorari to reverse the errorous ruling dismissing his
complaint after de novo review, rather than the proper standard of
review ofran informa pauperis prisoner complaint for an abuse of
discretion pursuant to precedent of this court.

4.

REASONS FOR GRANTING THE PETITION
A. Pursuant to supreme court rule 10.(a) and (c).
10.(a) Conflicts with decisions of other court of appeals.
10.(c) United states court of appeals for the tenth circuit has decided'!
an important federal question in a way that conflicts with relevant
decisions of this court.
The decision of the tenth circuit court of appeals decision conflicts
with decisions of other court, of appeals.
Here, Mr.Smith's amended complaint under the Petrick holding and analysis
adequately satisfied the underlying claim of cause of action to pass the
nonfrivolous inquiry. A legally frivolous claim is one i which the
plaintiff asserts the violation of a legal interest that clearly does
not exist or asserts facts that do not support an arguable claim. See
Neitzke V. Williams, 490 U.S. 319,327-328 (1989).
Mr. Smith amended his 42 U.S.C. 1983 civil rights complaint, that being
because as compared with Petrick, Mr.Smith's amended complaint specifically
identified (1) his need for Louisiana convictions to use as legal
material for a collateral attack of his enhanced Colorado sentence in
state court of appeals (2) his request was not overly or excessively
broad because he requested only certain louisiana prior convictions
used to enhance his Colorado sentence (3) Mr. Smith even provided
records to show he was legally entitled to have his out-of-state
requested materials provided to him by the Colorado Department of
Corrections policy AR 750-01 which provides: Ensure that all DOC employee's
)

5.

, contract workers, and volunteers read, understand, and comply with the
contents of this AR IV.Authority.H. Citing Petrick V. Maynard, 11 F.3d 991
(10th Cir.1993) of which the 10th circuit analysis of the state of
Oklahoma is the law of the case doctrine and the 10th circuit analysis of
the Colorado decision to dismiss Mr.Smith's amended complaint as legally
frivolous conflicts with the state of Oklahoma 10th circuit decision
pursuant to Petrick V. Maynard, supra. See also AR 750-01 attached hereto
as appendix D.
Therefore it is axiomatic that the petitioner's amended complaint cannot
be deemed frivolous under the allegations he presented being simularly
situated as Petrick V. Maynard and under the fourteenth amendment that
no state shall deprive any person of life, liberty, or property, without
due process of law, Nor deny to any person within its jurisdiction to
equal protection of the laws.
Finally, the 10th circuit did not agree with the court's conclusions
that Oklahoma met its constitutional duty under bounds V. Smith. The
10th circuit further stated, the constitutional guarantee of adequate,
effective, and meaningful access to the courts would mean little if a
state could satisfy its affirmative duty by a mere attempt to
accomodate an inmate.
Accommodation was not accomplished here because the effect of the
district court' s ruling was to disprove totally Petrick of Hi's

6.

^

£

constitutional right to legal materials needed to ensure him meaningful
access to the court's.

Pursuant to supreme court rule 10. (c), the United

States court of appeals for the 10th circuit of Colorado has decided an
important federal question in a way that conflicts with relevant decisions
of this case.
The holding of the United States District Court for the District of
Colorado and 10th circuit Court of appeals has therefore reviewed the
recommendation de novo in light of the file and record in this case. On
de novo review the court concludes that the recommendation is correct.
Accordingly it is ordered that the recommendation of the United States
magistrate judge is accepted and adopted. It is further ordered that the
amended prisoner complaint and action are dismissed as legally frivolous.
The 10th citcuit court of appeals holding that upon de novo
review the district court adopted the magistrate judge's report and
recommendation and dismissed Mr. Smith's prison complaint with prejudice
and it indicates it reviews of the district court's dismissal of Mr.Smith's
complaint as legally frivolous de novo but the district court's
dismissal of Mr. Smith's prison complaint as legally frivolous directly
conflicts with relevant decisions of this court.
The United States supreme court, justice o'conner, held that dismissal
of an informa pauperis complaint on grounds of frivolousness is properly
reviewed for abuse of discretion and it was error for court of appeals

7.

to review dismissal of complaint de novo. Vacated and remanded.
Indeed, the statute's instruction that an action may be dismissed if
the court is " satified " that it is frivolous indicates that
frivolousness is a decision entrusted to the dicretion of the court
entertaining the informa pauperis petition.
Because the frivolousness determination is a discretionary one, we
further hold that a 1915 (d) dismissal is properly reviewed for an
abuse of discretion and that it was error for the court of appeals to
review the dismissal of Hernandez (in this case Smith's) claims de novo.
Denton V. Hernandez, 504 U.S. 25, 112 S.CT. 1728,1734(U.S.Cal.1992), see
also FDIC V..United Pac.Ins Co; 152 F.3d 1266, 1272 (10th Cir.1998).
Pursuant to supreme court rule 13.1 this petition for writ of
certiorari is timely filed with the clerk of this court within 90
days after entry of the judgment which in this case was March 16,2020,
see also Appendices A,B, and C attached hereto.
Respectfully Submitted,
Petitioner

8.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

1
Date:

*~l~

-9Mh>

9.

/.

